HHS/OIG-Audit--"Review of Medicare Credit Balances at Selected Hospitals
in California, (A-09-92-00050)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Credit Balances at Selected Hospitals in California," (A-09-92-00050)
February 5, 1993
Complete
Text of Report is available in PDF format (1.13 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report presents the results of our review of Medicare credit
balances at 8 randomly selected hospitals of 113 hospitals for whom Blue Cross
of California (Blue Cross) served as the fiscal intermediary. Our review showed
that these 8 hospitals received $1,000,074 in Medicare overpayments which should
have been refunded to the intermediary. Projecting the results of our review
to the 113 hospitals, we estimated that the larger hospitals serviced by Blue
Cross received and retained about $18.8 million in Medicare overpayments.